Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 ARIZONA IMPROPERLY CLAIMED
    SOME CHILD CARE AND
DEVELOPMENT TARGETED FUNDS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        April 2014
                                                      A-09-12-01004
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Arizona claimed $2.2 million of unallowable Child Care and Development targeted funds
 for fiscal year 2009.

WHY WE DID THIS REVIEW

The Child Care and Development Fund (CCDF) provides discretionary funding for three targeted
funds known as Infant and Toddler, Quality, and School Age Resource and Referral funds.
These targeted funds are used for activities that improve the availability, quality, and
affordability of childcare and to support the administration of these activities. The Federal
Government provides 100 percent of these funds. Previous Office of Inspector General reviews
found that States did not always comply with Federal requirements for the use of CCDF targeted
funds.

The objective of this review was to determine whether the Arizona Department of Economic
Security (State agency) complied with Federal requirements for the use of CCDF targeted funds for
Federal reimbursement for Federal fiscal years (FYs) 2007 through 2009.

BACKGROUND

Under the CCDF program, States have considerable latitude in administering and implementing
their childcare programs. Each State must develop, and submit to the Administration for
Children and Families (ACF) for approval, a State plan that identifies the purposes for which
CCDF funds will be expended for two grant periods (i.e., 2 FYs). Program requirements state
that a State agency has 2 FYs to obligate CCDF funds and a third FY to liquidate those funds.
The State plan must also designate a lead agency responsible for administering childcare
programs. In addition, States are required to report expenditures of targeted funds on the
quarterly Child Care and Development ACF-696 Financial Report (ACF-696 report), which is a
cumulative report for the FY.

In Arizona, the State agency is the lead agency. As the lead agency, the State agency is required
to oversee the expenditure of funds by providers, contractors, and other agencies of the Arizona
State government to ensure that the funds are expended in accordance with Federal requirements.
We reviewed all of the $29,443,756 of CCDF targeted fund expenditures that the State agency
reported on its ACF-696 reports for FYs 2007 through 2009.

WHAT WE FOUND

Of the $29,443,756 of CCDF targeted fund expenditures that we reviewed, the State agency
complied with Federal requirements for the use of $27,199,673. However, the State agency did
not comply with Federal requirements for the use of the remaining $2,244,083. Specifically, the
State agency improperly obligated $2,244,083 of FY 2009 targeted funds after the obligation
period had ended.




Arizona Improperly Claimed Some Child Care and Development Targeted Funds (A-09-12-01004)         i
The State agency did not have written policies and procedures addressing the monitoring of the
obligation and liquidation of the targeted funds. Without necessary policies and procedures, the
State agency could not identify which specific expenditures would be allowable for a particular
FY.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund to the Federal Government $2,244,083 for CCDF targeted funds that were not
        properly obligated and liquidated and

    •   develop and implement policies and procedures to address the monitoring of the
        obligation and liquidation of CCDF targeted funds to ensure that the funds are properly
        obligated and liquidated.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency indicated that it would not challenge
our finding that it had improperly obligated $2,244,083 of targeted funds. However, the State
agency did not concur with our recommendation to refund this amount. The State agency
commented that its noncompliance “resulted from an unintentional misunderstanding of the
process, rather than willful misrepresentation” on its financial reports. The State agency
provided information on corrective actions that it had taken regarding our finding. The State
agency concurred with our other recommendation and provided information on actions that it
had taken or planned to take to address this recommendation.

After reviewing the State agency’s comments, we maintain that our recommendation to refund
$2,244,083 to the Federal Government is valid.




Arizona Improperly Claimed Some Child Care and Development Targeted Funds (A-09-12-01004)          ii
                                                        TABLE OF CONTENTS


INTRODUCTION ...................................................................................................................... 1

           Why We Did This Review .............................................................................................. 1

           Objective ......................................................................................................................... 1

           Background ..................................................................................................................... 1

           How We Conducted This Review................................................................................... 2

FINDING .................................................................................................................................... 2

           State Agency Improperly Obligated Targeted Funds ..................................................... 2

           State Agency Did Not Have Written Policies and Procedures Addressing
             Monitoring of Obligation and Liquidation of Targeted Funds .................................... 3

RECOMMENDATIONS ............................................................................................................ 3

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE .............................................................. 4

APPENDIXES

           A: Related Office of Inspector General Reports ............................................................ 5

           B: Audit Scope and Methodology.................................................................................. 6

           C: Federal and State Requirements Related to Targeted Funds
               Under the Child Care and Development Fund ........................................................ 8

           D: State Agency Comments ........................................................................................... 9




Arizona Improperly Claimed Some Child Care and Development Targeted Funds (A-09-12-01004)                                                          iii
                                         INTRODUCTION

WHY WE DID THIS REVIEW

The Child Care and Development Fund (CCDF) provides discretionary funding for three targeted
funds, administered at the Federal level by the U.S. Department of Health and Human Services,
Administration for Children and Families (ACF), and known as Infant and Toddler, Quality, and
School Age Resource and Referral funds. These targeted funds are used for activities that
improve the availability, quality, and affordability of childcare and to support the administration
of these activities. The Federal Government provides 100 percent of these funds. Previous
Office of Inspector General (OIG) reviews found that States did not always comply with Federal
requirements for the use of CCDF targeted funds. (Appendix A contains a list of OIG reports on
States’ use of targeted funds.)

OBJECTIVE

Our objective was to determine whether the Arizona Department of Economic Security (State
agency) complied with Federal requirements for the use of CCDF targeted funds for Federal
reimbursement for Federal fiscal years (FYs) 2007 through 2009.

BACKGROUND

Under the CCDF program, States have considerable latitude in implementing and administering
their childcare programs. Each State must develop, and submit to ACF for approval, a State plan
that identifies the purposes for which CCDF funds will be expended for two grant periods (i.e.,
2 FYs). Program requirements state that a State agency has 2 FYs to obligate CCDF funds and a
third FY to liquidate those funds. Table 1 shows the obligation and liquidation periods for each
FY covered by our review.

          Table 1: Obligation and Liquidation Periods for FYs 2007 Through 2009

                      Obligation Period           Obligation Period           Liquidation Period
       FY
                         Start Date                   End Date                    End Date
      2007                10/1/2006                   9/30/2008                   9/30/2009
      2008                10/1/2007                   9/30/2009                   9/30/2010
      2009                10/1/2008                   9/30/2010                   9/30/2011

The State plan must also designate a lead agency responsible for administering childcare
programs. In addition, States are required to report expenditures of targeted funds on the
quarterly Child Care and Development ACF-696 Financial Report (ACF-696 report), which is a
cumulative report for the FY.

In Arizona, the State agency is the lead agency. As the lead agency, the State agency is required
to oversee the expenditure of funds by providers, contractors, and other agencies of the Arizona
State government to ensure that the funds are expended in accordance with Federal requirements.
The State agency contracts with these entities to expend the funds.


Arizona Improperly Claimed Some Child Care and Development Targeted Funds (A-09-12-01004)          1
The State agency considers contractual obligations to have occurred at the signing of the
contract. Once a contract is signed and funds are encumbered (money is available and set aside
in the accounting system), the State agency is obligated to pay the contracted entity when the
service is provided. 1

HOW WE CONDUCTED THIS REVIEW

We reviewed all of the $29,443,756 of CCDF targeted fund expenditures that the State agency
reported on its ACF-696 reports for FYs 2007 through 2009. 2

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains details of our audit scope and methodology, and Appendix C contains
details on the Federal and State requirements related to CCDF targeted funds.

                                                    FINDING

Of the $29,443,756 of CCDF targeted fund expenditures that we reviewed, the State agency
complied with Federal requirements for the use of $27,199,673. However, the State agency did
not comply with Federal requirements for the use of the remaining $2,244,083. Specifically, the
State agency improperly obligated $2,244,083 of FY 2009 targeted funds after the obligation
period had ended.

The State agency did not have written policies and procedures addressing the monitoring of the
obligation and liquidation of the targeted funds. Without necessary policies and procedures, the
State agency could not identify which specific expenditures would be allowable for a particular
FY.

STATE AGENCY IMPROPERLY OBLIGATED TARGETED FUNDS

Federal regulations specify that CCDF funds must be obligated 3 in the FY in which the funds
were awarded or in the succeeding FY and specify that any funds not obligated during this period
will revert to the Federal Government (45 CFR §§ 98.60(d)(1) and 98.60(d)(7)). Federal

1
 The Arizona Revised Statutes, section 35-101.13, define “encumbrance” as “an obligation in the form of any
purchase order, contract or other commitment which is chargeable to an appropriation or any other authorized fund
source and for which a part of the fund source is reserved. It ceases to be an encumbrance when paid or canceled.”
2
  The 3-year obligation and liquidation cycle described above creates a delay in terms of when those funds can be
regarded as closed for adjustment and then subject to audit.
3
  The determination of whether funds have been obligated and liquidated will be based on State or local law; if there
is no applicable State or local definition, the Federal definitions of “obligations” and “outlays” (expenditures at
45 CFR § 92.3) apply (45 CFR § 98.60(d)(4)).


Arizona Improperly Claimed Some Child Care and Development Targeted Funds (A-09-12-01004)                            2
regulations also specify that fiscal control and accounting procedures must be sufficient to permit
the tracing of funds to a level of expenditure adequate to establish that the funds have not been
used in violation of the restrictions and prohibitions of the statute authorizing the block grant
(45 CFR § 98.67(c)).

Contrary to these Federal requirements, the State agency improperly obligated $2,244,083 in
targeted funds. Specifically, the State agency transferred $2,244,083 of lump-sum expenditures
to FY 2009 that had been obligated and liquidated with FY 2011 targeted funds. These
lump-sum transfers were unallowable because the obligation for these expenditures occurred in
FY 2011, which was after the 2-year obligation period for FY 2009 had ended
(September 30, 2010). Table 2 shows that the obligation periods for FYs 2009 and 2011 do not
overlap.

    Table 2: Comparison of Obligation and Liquidation Periods for FYs 2009 and 2011

                             Obligation Period        Obligation Period         Liquidation Period
            FY
                                Start Date                End Date                  End Date
           2009                  10/1/2008                9/30/2010                 9/30/2011
           2011                  10/1/2010                9/30/2012                 9/30/2013

In addition, the State agency could not trace these lump-sum transfers to specific expenditures.
The State agency kept journal vouchers that provided general information, such as the lump-sum
amount and the grant year that the amount was being transferred to and from. However, these
vouchers did not identify the specific expenditures related to the lump-sum transfers.

STATE AGENCY DID NOT HAVE WRITTEN POLICIES AND PROCEDURES
ADDRESSING MONITORING OF OBLIGATION AND LIQUIDATION OF
TARGETED FUNDS

The State agency had written procedures regarding CCDF targeted funds management but did
not have written policies and procedures addressing the monitoring of the obligation and
liquidation of the targeted funds. Without necessary policies and procedures, the State agency
could not identify which expenditures would be allowable for a particular FY. Better monitoring
would have revealed that the targeted funds were not being obligated and liquidated according to
the timeframes specified in Federal requirements.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal Government $2,244,083 for CCDF targeted funds that were not
        properly obligated and liquidated and

    •   develop and implement policies and procedures to address the monitoring of the
        obligation and liquidation of CCDF targeted funds to ensure that the funds are properly
        obligated and liquidated.


Arizona Improperly Claimed Some Child Care and Development Targeted Funds (A-09-12-01004)            3
                           STATE AGENCY COMMENTS AND
                      OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency indicated that it would not challenge
our finding that it had improperly obligated $2,244,083 of targeted funds. However, the State
agency did not concur with our recommendation to refund this amount. The State agency
commented that its noncompliance “resulted from an unintentional misunderstanding of the
process, rather than willful misrepresentation” on its financial reports. The State agency also
commented that the “services claimed were appropriate to be reported against the specified
targeted fund but were delivered outside of the timeframe to report for that fiscal year.” The
State agency provided information on corrective actions that it had taken regarding our finding.
The State agency concurred with our other recommendation and provided information on actions
that it had taken or planned to take to address this recommendation. The State agency’s
comments appear in their entirety as Appendix D.

After reviewing the State agency’s comments, we maintain that our recommendation to refund
$2,244,083 to the Federal Government is valid. As noted in our report, the State agency
transferred this amount of lump-sum expenditures to FY 2009 that had been obligated and
liquidated with FY 2011 targeted funds. Because the obligation for these expenditures occurred
after the obligation period for FY 2009 had ended, these expenditures were unallowable. Federal
regulations require that CCDF funds not obligated during the period that they were awarded or in
the succeeding FY will revert to the Federal Government.




Arizona Improperly Claimed Some Child Care and Development Targeted Funds (A-09-12-01004)      4
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                           Report              Date
                           Report Title
                                                                           Number             Issued
Virginia Properly Obligated and Liquidated Most Targeted                A-03-12-00251       10/17/2013
Funds Under the Child Care and Development Fund Program

Louisiana Improperly Claimed Some Child Care and                        A-06-12-00057       9/30/2013
Development Fund Targeted Funds

Nebraska Improperly Claimed Some Child Care and                         A-07-12-03175       4/30/2013
Development Targeted Funds

Michigan Properly Obligated and Liquidated Targeted Funds               A-05-12-00062       4/26/2013
Under the Child Care and Development Fund Program

Ohio Properly Obligated and Liquidated Targeted Funds                   A-05-12-00061       4/26/2013
Under the Child Care and Development Fund Program

Connecticut Properly Obligated and Liquidated Targeted                  A-01-12-02505       2/21/2013
Funds Under the Child Care and Development Fund Program

Iowa Improperly Claimed Some Child Care and Development                 A-07-11-03163       3/28/2012
Targeted Funds




Arizona Improperly Claimed Some Child Care and Development Targeted Funds (A-09-12-01004)            5
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed all of the $29,443,756 of CCDF targeted fund expenditures that the State agency
reported on its ACF-696 reports for FYs 2007 through 2009. We did not perform a detailed
review of the State agency’s internal controls because our objective did not require us to do so.
We limited our review to the controls related to the obligation and liquidation of the targeted
funds.

We conducted our audit from September 2012 to October 2013 and performed our fieldwork at
the State agency’s office in Phoenix, Arizona.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and program guidance, as well as State
        laws and the approved Arizona CCDF State plans;

    •   reviewed the ACF-696 reports for FYs 2007 through 2009 to determine the amount of
        targeted funds that the State agency reported;

    •   interviewed ACF officials to obtain an understanding of the CCDF program;

    •   interviewed State agency officials responsible for preparing the ACF-696 reports to
        obtain an understanding of how the reports were prepared, how the targeted funds were
        reported, and what documentation was maintained to support expenditures on the reports;

    •   reconciled expenditures reported on the ACF-696 reports for CCDF targeted funds with
        the State agency’s general ledger;

    •   analyzed the State agency’s general ledger and examined, on a test basis, documentation
        supporting selected transactions to determine their allowability in relation to obligation
        and liquidation requirements;

    •   interviewed State agency officials and reviewed State agency policies and procedures to
        gain an understanding of CCDF targeted funds management in relation to the obligation,
        encumbrance, and liquidation requirements;

    •   reviewed the State agency’s contracts with providers, contractors, and other agencies of
        the Arizona State government to determine the dates on which the contracts were signed
        in relation to the obligation requirements of targeted funds for FYs 2007 through 2009;

    •   reviewed invoices submitted to the State agency from providers, contractors, and other
        agencies of the Arizona State government to determine the dates on which the contracted



Arizona Improperly Claimed Some Child Care and Development Targeted Funds (A-09-12-01004)            6
        services were provided in relation to the obligation requirements of targeted funds for
        FYs 2007 through 2009;

    •   reviewed the State agency’s dates of payment to providers, contractors, and other
        agencies of the Arizona State government in relation to the liquidation requirements of
        targeted funds for FYs 2007 through 2009; and

    •   shared the results of our review with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Arizona Improperly Claimed Some Child Care and Development Targeted Funds (A-09-12-01004)         7
APPENDIX C: FEDERAL AND STATE REQUIREMENTS RELATED TO TARGETED
       FUNDS UNDER THE CHILD CARE AND DEVELOPMENT FUND

FEDERAL REQUIREMENTS

Federal regulations (45 CFR § 98.60(d)(1)) state: “Discretionary Fund allotments shall be
obligated in the fiscal year in which funds are awarded or in the succeeding fiscal year.
Unliquidated obligations as of the end of the succeeding fiscal year shall be liquidated within one
year.”

Federal regulations (45 CFR § 98.60(d)(7)) state: “Any funds not obligated during the obligation
period specified in paragraph (d) of this section will revert to the Federal government. Any
funds not liquidated by the end of the applicable liquidation period specified in paragraph (d) of
this section will also revert to the Federal government.”

Federal regulations (45 CFR § 98.60(d)(4)) state: “… determination of whether funds have been
obligated and liquidated will be based on: (i) State or local law; or, (ii) If there is no applicable
State or local law, the regulation at 45 CFR 92.3, Obligations and Outlays (expenditures).”

Federal regulations (45 CFR § 92.3) state: “Obligations means the amounts of orders placed,
contracts and subgrants awarded, goods and services received, and similar transactions during a
given period that will require payment by the grantee during the same or a future period.”

Federal regulations (45 CFR § 98.67(c)) state: “Fiscal control and accounting procedures shall
be sufficient to permit … [t]he tracing of funds to a level of expenditure adequate to establish
that such funds have not been used in violation of the provisions of this part.”

STATE REQUIREMENTS

The Arizona Revised Statutes, section 35-101.13, state: “Encumbrance means an obligation in
the form of any purchase order, contract or other commitment which is chargeable to an
appropriation or any other authorized fund source and for which a part of the fund source is
reserved. It ceases to be an encumbrance when paid or canceled.”




Arizona Improperly Claimed Some Child Care and Development Targeted Funds (A-09-12-01004)           8
                             APPENDIX D: STATE AGENCY COMMENTS 





                                        :::---·-­ rbtttft----::-­
                                        DEPARTMENT OF ECONOMIC SECURITY
                                                        Yout Pmtnu For A Scronp Arizono

           JaniceK. Brewer                                                                                    Clarence H. Carter
           Governor                                                                                                     Director




                                                                 FEB 2 0 2014


           Ms. Lori A. Ahlstrand
           Regional Inspector General for Audit Services
           Office of Audit Services, Region IX
           90 7th Street, Suite 3-650
           San Francisco, California 94103

           RE: 	 Arizona Improperly Claimed Some Child Care and Development Targeted Funds, Draft
                 Report: A -09-12-0 10004

           Dear Ms. Ahlstrand:

           We have reviewed the U.S. Department of Health and Human Services, Office of Inspector
           General (OIG), January 24, 2014 draft report entitled Arizona Improperly Claimed Some Child
           Care and Development Targeted Funds, and enclosed are comments from the Arizona
           Department of Economic Security (DES).

           DES appreciates the opportunity to respond to and provide additional comments to the draft
           report, which will be included in the final report. If you have any questions, please contact Brad
           Willis, Program Administrator, Child Care Administration at (602) 542-1958 or email
           BWillis@azdes.gov.


                                                                  Sincerely,

                                                                  I s! Clarence H . Carter
                                                                  C larence H. Carter
                                                                  Director

           Enclosure




                             1717 W. Jefferson, SIC OLOA, Phoenix, AZ 85007 • P.O. Box 6 123, Phoenix, AZ 85005
                                     Telephone (602) 542-5678 • Fa.x (602) 542-5339 • www.azdes.gov




Arizona Improperly Claimed Some Child Care and D evelopment Targeted F unds (A-0 9-12-01 004)                                      9
          Arizona Response to OIG Report Number: A-09-12-010004


                             ARIZONA DEPARTMENT OF ECONOMIC SECURITY 

                                   RESPONSE TO OIG DRAFT REPORT 


                    Arizona Improperly Claimed Some Child Care Development Targeted Funds;
                                          Report Number A-09-12-0004

          Background

          Under the Child Care Development FWld (CCDF) program, States have considerable latitude in
          administering and implementing their childcare programs. Each State must develop, and submit
          to the Administration for Children and Families (ACF) for approval, a state plan that identifies
          the purposes for which CCDF fWlds will be expended for two grant periods (i.e., two fiscal
          years). Program requirements state that a state agency has two fiscal years to obligate CCDF
          fWlds and a third fiscal year to liquidate those funds. The state plan must also designate a lead
          agency responsible for administering ch ildcare programs. In addition, states are required to
          report expenditures of targeted funds on the quarterly Child Care and Development ACF-696
          Financial Report (ACF-696 report), which is a cumulative report for the fiscal year.

          In Arizona, the Department ofEconomic Security (DES) is the lead agency. As the lead agency,
          DES is required to oversee the expenditure of funds by providers, contractors, and other agencies
          of the Arizona State government to ensure that the funds are expended in accordance with
          federal requirements. The Office ofinspector General (OIG) reviewed all ofthe $29,443,756 of
          CCDF targeted fund expenditures that DES reported on its ACF-696 reports tor Fiscal Years
          2007 through 2009.

          OIG Finding and Recommendation #1

          Of the $29,443,756 of CCDF targeted fm1ds expenditures reviewed, DES complied with federal
          requirements for the use of $27,199,673 (92.4 percent). 010 determined that DES did not
          comply with federal requirements for the use of the remaining $2,244,083 (7.6 percent).
          Specifically, OIG concluded that DES improperly obligated $2,244,083 of Fiscal Year 2009
          targeted funds after the obligation period had ended.

          OIG recommends that DES:

              • 	 Refund to the federal government $2,244,083 for CCDF targeted funds that were not
                  properly obligated and liquidated.

          DES Response to Finding and Recommendation #1

           DES will not challenge the referenced finding, but does not concur with the recommendation that
           DES refm1d the federal government $2,244,083.

           DES is cognizant of the requirement that discretionary funds be obligated in the fiscal year in
           which they are received, or in the succeeding fiscal year and liquidated by the end of the third
           federal fiscal year.




Arizona Improperly Claimed Some Child C are and D evelopment Targ eted Funds (A-09-12-01 004)                 10
          Arizona Response to OIG Report Number: A-09-12-010004


             • 	 The identified non-compliance with obligation/liquidation periods resulted from an
                 unintentional misunderstanding of the process, rather than willful misrepresentation on
                 financial reports submitted to Department of Health and Human Services (DHHS).
             • 	 The services claimed were appropriate to be reported against the specified target ed fund
                 but were delivered outside ofthe timeframe to report for that fiscal year.
             • 	 DES has enhanced its process for lump-sum adjustments in which d etailed supporting
                 documentation is necessary prior to the documents being processed.
             • 	 DES has also instituted enhancements to the payment system which will allow for
                 increased oversight and monitoring of grant obligation and liquidation periods for
                 targeted funds.

          OIG Finding and Recommendation 1#2

          DES did not have written policies and procedures addressing the monitoring of the obligation
          and liquidation of the targeted funds. Without necessary policies and procedures, DES could not
          identify which specific expenditures would be allowable for a particular fiscal year.

          OIG recommends that DES :

             • 	 Develop and implement policies and procedures to address the monitoring of the
                 obligation and liquidation of CCDF targeted funds to ensure that the funds are properly
                 obligated and liquidated.

          DES Response to Finding and Recommendation #2

          DES concurs with the referenced finding and recommendation.

          To address this finding, DES has taken and will take the following action:

             • 	 DES has implemented procedures to comply with a more restrictive threshold for
                 establishment of encumbrances for targeted funds.
             • 	 The DES Child Care Administration, and the Division of Rehabilitation Services Finance
                 and Budget Unit (FBU) and the Financial Services Administration (FSA) will ensure the
                 proper management of oversight of targeted funds to remain within CCDF grant targeted
                 encumbrance and spending requirements. Specifically, the Division of Rehabilitation
                 Services will provide a senior management review and approval of all expenditures or
                 adjustments of requests moving expenditures which may result in reporting expendit ures
                 that occur outside the obligation period to ensure formal compliance with encumbrance
                 requirements.
             • 	 Expenditures reported for disbursements after the obligation period will be avoided. If
                 any such expenditure is reported, detailed expenditure data containing the original date of
                 service and activity wiJJ be maintained by the Division ofEmployment and Rehabilitation
                 Services.




Arizona Improp erly Claimed Some Child Care and Development Targeted Funds (A-09-12-01 004)                    11
